                U.S. Department of Agriculture

                   Office of Inspector General
                            Southwest Region




      Audit Report


 2005 Hurricane Initiatives:
Aquaculture Grants to States




                       Report No. 03601-48-Te
                                October 2007
                   UNITED STATES DEPARTMENT OF AGRICULTURE

                                   OFFICE OF INSPECTOR GENERAL


                                       Washington, D.C. 20250




October 18, 2007


REPLY TO
ATTN OF:       03601-48-Te

TO:            Teresa C. Lasseter
               Administrator
               Farm Service Agency

ATTN:          T. Mike McCann
               Director
               Operations Review and Analysis Staff

FROM:          Robert W. Young /s/
               Assistant Inspector General
                for Audit

SUBJECT:       2005 Hurricane Initiatives: Aquaculture Grants to States


This report presents the results of the subject audit. Your written response to the official draft
report, dated September 27, 2007, is included as exhibit C, with excerpts and the Office of
Inspector General’s position incorporated into the relevant Findings and Recommendations
sections of the report.

Your response and subsequently provided documentation contained sufficient information to
reach management decisions on all recommendations. Please follow Departmental and your
internal agency procedures in forwarding final-action correspondence to the Director, Planning
and Accountability Division, Office of the Chief Financial Officer. Please note that Departmental
Regulation 1720-1 requires final action to be taken within 1 year of each management decision
to prevent being listed in the Department's annual Performance and Accountability Report.

We appreciate the courtesies and cooperation extended to us by members of your staff during the
audit.
Executive Summary
Farm Service Agency 2005 Hurricane Initiatives: Aquaculture Grants to States (Audit
Report 03601-48-Te)

Results in Brief                   This report presents the results of our audit of the Farm Service
                                   Agency’s (FSA) $25 million Aquaculture Grant Program (AGP) to six States.
                                   The overall objectives of our audit were to determine the adequacy of FSA’s
                                   management controls over the approval and distribution of the grant funds to
                                   States, to include FSA’s controls to ensure State agriculture agencies distribute
                                   AGP funds to eligible producers in proper amounts that do not exceed the
                                   payment limitations. Our review encompassed over $20 million in AGP
                                   payments distributed in the States of Alabama, Louisiana, and Mississippi.

                                   Aquaculture producers—who farm animal species such as crawfish, catfish,
                                   and alligators—were affected by the 2005 hurricanes. Not only were their
                                   livestock killed outright by the hurricanes, but the intrusion of saltwater into
                                   their ponds meant that the production of freshwater species was interrupted. In
                                   response to this disaster, the Secretary of Agriculture authorized the AGP to
                                   make $25 million in block grants available to six States where producers
                                   suffered losses due to the hurricanes. 1

                                   The Office of Inspector General (OIG) initiated this audit to determine how
                                   well the FSA administered these block grants. Overall, we found that FSA
                                   needs to improve management controls over the approval and distribution of
                                   future grant funds such as the funds distributed under AGP in Louisiana,
                                   Mississippi, and Alabama. We did not identify any improper payments;
                                   however, there were three specific problems with AGP. First, FSA did not
                                   allocate the $25 million in AGP funds based on estimated losses, instead, it
                                   allocated funds based on number of farms and value of production in the
                                   affected areas. Second, Alabama and Mississippi, on their own accord and
                                   counter to their agreements with FSA, compensated producers based on
                                   criteria other than the producers' losses: Mississippi paid producers based on
                                   feed purchased, and Alabama paid producers based on surface acres of water.
                                   Third, Louisiana and Mississippi devised different methodologies to distribute
                                   funds to producers that resulted in inequitable treatment. Louisiana paid
                                   certain counties at a higher rate; however, it could not provide evidence of
                                   how it determined which counties would receive this higher rate. Mississippi
                                   compensated catfish producers based on the amount of feed they purchased
                                   and compensated producers of all other species the amount of their actual loss.
                                   Each of the problems is ultimately attributable to FSA’s lack of adequate
                                   control over how States would implement their programs. As a result,


1
 AGP was authorized under section 32 of the Agricultural Adjustment Act, dated August 24, 1935, which was intended to reestablish producers’
purchasing power by making payments in connection with the normal production of any agricultural commodity for domestic consumption.

USDA/OIG-A/03601-48-Te                                                                                                                    Page i
                                                               October 2007
                  $25 million in AGP funds was expended in ways that did not necessarily
                  correspond to producers’ actual losses.

                  Our audit was conducted in conjunction with the President’s Council on
                  Integrity and Efficiency as part of its examination of relief efforts provided by
                  the Federal Government in the aftermath of Hurricanes Katrina and Rita. As
                  such, a copy of this report has been forwarded to the President’s Council on
                  Integrity and Efficiency, Homeland Security Working Group, which is
                  coordinating Inspectors' General review of this important subject.

Recommendations
In Brief          We recommended that FSA develop a methodology for future grant programs
                  to better direct grant funds to the areas most directly affected and that FSA
                  reallocate unexpended AGP funds to States in need of additional funding.

                  We also recommended that FSA develop and implement controls for future
                  grant programs to ensure such programs achieve their intended results, and
                  treat program participants equitably.


Agency Response   In its September 27, 2007, written response to the report, FSA generally
                  concurred with the findings and recommendations. FSA’s written response is
                  included as exhibit C of this report.

OIG Position      We accept the management decisions for all of the recommendations.




USDA/OIG-A/03601-48-Te                                                                    Page ii
                                     October 2007
Abbreviations Used in This Report


AGP               Aquaculture Grant Program
CFR               Code of Federal Regulations
CGP               Catfish Grant Program
FSA               Farm Service Agency
OCFO/PAD          Office of the Chief Financial Officer,
                   Director, Planning and Accountability
OGC               Office of the General Counsel
OIG               Office of Inspector General
OMB               Office of Management and Budget
USDA              Department of Agriculture




USDA/OIG-A/03601-48-Te                                     Page iii
                                      October 2007
Table of Contents

Executive Summary ....................................................................................................................... i

Abbreviations Used in This Report ............................................................................................ iii

Background and Objectives ......................................................................................................... 1

Findings and Recommendations.................................................................................................. 2

        Finding 1            FSA Needs to Improve Controls Over the Approval and Distribution
                             of Aquaculture Grant Program Funds to Ensure Producers are
                             Equitably Compensated for Losses ............................................................... 2
                                 Recommendation 1 ................................................................................ 6
                                 Recommendation 2 ................................................................................ 7
                                 Recommendation 3 ................................................................................ 8

Scope and Methodology................................................................................................................ 9

Exhibit A – Summary of Monetary Results ............................................................................. 10
Exhibit B – Summary Data on Payments as of March 2007................................................... 11
Exhibit C – Agency Response .................................................................................................... 12




USDA/OIG-A/03601-48-Te                                                                                                                 Page iv
                                                              October 2007
Background and Objectives

Background                          The Secretary authorized the Farm Service Agency (FSA) to fund $25 million in
                                    block grants through the Aquaculture Grant Program (AGP). FSA distributed
                                    funds among the six States affected by the hurricanes based on the number of
                                    aquaculture farms and value of aquaculture sales in eligible counties, as reported
                                    in the 2002 Department of Agriculture's (USDA) National Agricultural Statistics
                                    Service Census. Based on this method, FSA provided AGP funds in the
                                    following amounts: Alabama, $5,037,500; Florida, $3,662,500; Louisiana,
                                    $4,512,500; Mississippi, $10,762,500; North Carolina, $312,500; and Texas,
                                    $712,500.

                                    The grant agreements charged State agriculture agencies to distribute AGP funds
                                    to eligible aquaculture producers. According to the AGP Fact Sheet, an eligible
                                    aquaculture producer was defined as a producer who raised aquaculture species
                                    in a controlled environment as part of a farming operation, had a risk in the
                                    production of such aquaculture species, suffered an aquaculture loss directly
                                    resulting from an eligible hurricane in an eligible county during an applicable
                                    time period, and had not received assistance under other disaster programs for
                                    the same aquaculture loss.

                                    Within FSA, grant responsibility is split between two divisions: FSA’s Financial
                                    Management Division is responsible for disbursing and monitoring funds,
                                    distributing the grant agreements to the States, and collecting the paperwork
                                    required by the agreements. The Production, Emergency, and Compliance
                                    Division is responsible for drafting the grant agreements and assuring that States
                                    comply with the agreement.

                                    The President’s Council on Integrity and Efficiency identified and reported
                                    procurement and grant management as one of the top six most significant
                                    challenges in its 2006 progress report. 2 The identified challenges highlight
                                    high-risk activities and performance issues that affect agency operations. The
                                    report also stated that grant management oversight warrants continued emphasis.

Objectives                          The objectives of this audit were to determine the adequacy of FSA’s
                                    management controls over the approval and distribution of grant funds,
                                    including FSA’s controls to ensure State agriculture agencies distribute AGP
                                    funds to eligible producers in amounts that do not exceed payment limitations.




2
    President’s Council on Integrity and Efficiency, "A Progress Report to the President," fiscal year 2006.
USDA/OIG-A/03601-48-Te                                                                                         Page 1
                                                                      October 2007
Findings and Recommendations

Finding 1                         FSA Needs to Improve Controls Over the Approval and Distribution
                                  of Aquaculture Grant Program Funds to Ensure Producers are
                                  Equitably Compensated for Losses

                                  FSA did not adequately administer AGP to ensure that producers negatively
                                  affected by the 2005 hurricanes were equitably compensated for their losses.
                                  This occurred because FSA did not have adequate controls in place for
                                  overseeing how States administered grants. Instead, FSA officials delegated the
                                  responsibility for administering these programs to the States. They did not
                                  review how the States chose to operate the program, nor did they monitor the
                                  States’ programs to determine if AGP funds were distributed equitably to
                                  producers. As a result, $25 million in AGP funds was expended in ways that did
                                  not necessarily correspond to producers’ actual losses.

                                  According to departmental regulations, 3 all managers directing or controlling
                                  resources within the Department are responsible for establishing and
                                  maintaining controls for their assigned area. Further, Federal regulations 4 state
                                  internal controls should be designed to ensure that monitoring occurs in the
                                  course of normal operations, is performed continually, and is well established in
                                  the agency’s operations. Our review disclosed that FSA needs to improve
                                  controls over the approval and distribution of AGP funds to ensure producers are
                                  equitably compensated for losses.

                                  When they implemented AGP, States were required to provide producers with
                                  assistance that would not exceed the losses they suffered due to the
                                  2005 hurricanes. The AGP grant agreement did not, however, specify how
                                  States would determine producers’ losses, nor did it require that States submit
                                  their plan for administering their AGP and for compensating producers for their
                                  losses (see exhibit B).

                                  We found three problems with how producers were compensated for their losses
                                  under AGP. First, FSA did not allocate AGP funds among the affected States
                                  according to the losses producers suffered; instead, FSA allocated funds based
                                  on the number of farms and the annual production in each State. Second,
                                  Alabama and Mississippi did not always compensate producers according to
                                  their losses, but instead compensated producers according to other criteria, such
                                  as quantity of feed purchased. Third, within Louisiana and Mississippi,
                                  producers were inequitably compensated for their losses. Together, these three
                                  problems meant that there were significant disparities in how the $25 million in
                                  AGP funds was disbursed to producers affected by the 2005 hurricanes.
3
    Departmental Manual 1110-002, USDA Management Control Manual, dated November 29, 2002.
4
    Office of Management and Budget (OMB) Circular A-123, "Management's Responsibility for Internal Control," dated December 21, 2004.
USDA/OIG-A/03601-48-Te                                                                                                                   Page 2
                                                                 October 2007
                         FSA Did Not Allocate Funds to States Based on Losses

                         When FSA allocated funds to the six States affected by the
                         2005 hurricanes, it did not allocate those funds based on the amount of
                         the losses suffered by producers in affected counties; instead, it allocated
                         funds according to the number of aquaculture farms and the value of
                         annual aquaculture production in affected counties during 2002. This
                         decision meant that a Louisiana parish with a similar number of farms
                         and production to a North Carolina county would receive similar funds,
                         even though the Louisiana parish was much more severely affected by
                         the hurricanes. FSA officials stated that they used this methodology
                         because they believed it was the best available, and that the National
                         Association of State Departments of Agriculture had agreed. As a result
                         of this methodology, however, producers in Louisiana—where the
                         hurricanes resulted in the greatest damage—received relatively small
                         payments, even as funds in North Carolina went unused.

                         We found that Louisiana had little funds available, relative to the level of
                         damage the State suffered. Of the 346 eligible Louisiana producers, none
                         received the maximum payment of $80,000. The maximum payment any
                         producer received was just under $26,000, and the average payment in
                         Louisiana was under $13,000 (see exhibit B).

                         Alabama and Mississippi received more AGP funds than Louisiana. Of
                         the 163 eligible Alabama producers, 15 (or 9 percent) received the
                         maximum payment of $80,000. The average payment in Alabama was
                         nearly $31,000. Of the 363 eligible Mississippi producers, 57 (or
                         16 percent) received the maximum payment of $80,000. The average
                         payment in Mississippi was more than $29,000. To the contrary, North
                         Carolina did not disburse any of the $312,500 in AGP funds it received.

                         This method of dividing funds among the six States was not well suited
                         to allocating the most funds to areas where the damage was greatest. By
                         allocating funds based on the number of farms and value of production,
                         FSA allocated funds, not to the most damaged areas, but to areas where
                         there were historically more producers and higher sales. This
                         methodology resulted in disparities in how producers were treated,
                         especially in the areas most severely affected by the hurricanes.

                         We spoke to FSA officials about this situation. FSA agreed that
                         reallocation of the remaining AGP funds was a reasonable solution. FSA
                         should review loss payments and devise a method to reallocate the
                         unexpended AGP funds. For future programs, FSA should develop an
                         allocation methodology that more accurately reflects losses.



USDA/OIG-A/03601-48-Te                                                                        Page 3
                                        October 2007
                         Alabama and Mississippi Did Not Compensate Producers Based on
                         Their Losses

                         Although the AGP grant agreement stated that producers were to be
                         compensated for their losses, Alabama and Mississippi, on their own
                         accord and counter to the agreement, compensated producers based on
                         other criteria, such as a producer's pond acreage or feed purchased. This
                         occurred because FSA did not provide specific instructions for how
                         States were to operate their program, did not require States to submit a
                         plan for the agency’s approval before they processed any applications,
                         and did not monitor how States actually implemented their AGP. As a
                         result, Alabama and Mississippi processed over $15 million (nearly
                         $10.4 million in Mississippi and over $5 million in Alabama) in AGP
                         payments based on determinations unrelated to producers’ actual losses.

                         The AGP grant agreement required States to provide producers with
                         assistance for aquaculture losses caused by the 2005 hurricanes; the
                         amount of assistance provided to a producer was not to exceed the
                         amount of losses suffered by the producer as a result of the 2005
                         hurricanes. However, when States implemented AGP, they developed
                         different methodologies for determining how much producers in their
                         State would receive. Louisiana developed a methodology based on the
                         severity of storm damage in affected parishes, but we found that
                         Alabama and Mississippi did not always base the payment producers
                         would receive on the losses they actually suffered:

                         o Alabama did not require producers to report their losses at all.
                           Instead, State officials paid aquaculture producers $265.50 per
                           surface acre of water, without any evidence that a loss occurred. FSA
                           thus has no assurance that Alabama producers receiving over
                           $5 million in compensation actually suffered a loss, or that producers
                           were not compensated in excess of their losses.

                     o      In Mississippi, catfish producers were compensated at a rate of
                            $42.65 per ton of feed they purchased in 2005. Mississippi arrived at
                            this methodology because it had recently implemented a program
                            that was designed to compensate producers for feed losses. This
                            methodology is, however, inadequate for compensating catfish
                            losses, as there is no relationship between the feed a catfish producer
                            may have purchased and the losses he may have suffered due to a
                            hurricane. FSA thus has little assurance that nearly $10.4 million in
                            payments issued using this methodology corresponds to Mississippi
                            catfish producers’ actual losses.

                         We concluded that neither Alabama nor Mississippi had arrived at a
                         methodology that compensated producers for their actual losses.
USDA/OIG-A/03601-48-Te                                                                      Page 4
                                       October 2007
                                             Louisiana and Mississippi Producers Were Treated Inequitably

                                             We also found that producers within the States of Mississippi and
                                             Louisiana were not treated equitably. This occurred because the plans
                                             these States developed for issuing AGP payments were not well designed
                                             to ensure the equitable treatment of all producers. Additionally, FSA
                                             performed no formal review of the State programs. As a result, Louisiana
                                             and Mississippi issued over $15 million ($10.7 5 million in Mississippi
                                             and $4.5 million in Louisiana) in AGP payments in ways that resulted in
                                             disparities between producers.

                                             Mississippi treated catfish producers very differently than producers
                                             raising noncatfish species, such as crawfish. Producers of noncatfish
                                             species were compensated 100 percent of their approved loss up to
                                             $80,000, but producers of catfish were compensated based on a rate per
                                             ton of feed ($42.65/ton) purchased in 2005. The decision to compensate
                                             catfish producers based on the feed they had purchased resulted in
                                             catfish producers who did not receive the full $80,000 payment limit
                                             being compensated, just over 42 percent of their approved loss. The
                                             following examples illustrate this disparity:

                                                       Mississippi approved a crawfish producer’s loss as over $37,000
                                                        and paid the crawfish producer that amount.

                                                       Mississippi approved a catfish producer’s loss as more than
                                                        $83,000, but because the producer purchased just over 1,623 tons
                                                        of feed in 2005, he was paid just over $69,000.

                                                       Mississippi approved a catfish fingerling 6 producer’s loss as
                                                        more than $400,000, but because the producer had purchased
                                                        much less feed for fingerlings, he was paid only about $2,000.

                                             When we asked Mississippi officials if they were aware of the disparities
                                             created by their payment system, they stated they acknowledged that
                                             several producers of fingerlings had complained about the disparity in
                                             payments; however; they did not have additional funds to disburse.
                                             Additionally, Mississippi stated that using feed tons was ideal. If a
                                             producer was actively engaged in aquaculture, then he was buying feed
                                             in 2005.

                                             Louisiana developed a system for issuing AGP payments that was based
                                             on the severity of damage occurring due to the hurricanes. Essentially,
                                             this system compensated producers in four 7 parishes that were most

5
  Nearly $10.4 million in catfish payments and over .3 million in other aquaculture.
6
  Immature catfish.
7
  Iberia, St. Mary, St. Martin, and Vermillion.
USDA/OIG-A/03601-48-Te                                                                                           Page 5
                                                                   October 2007
                                       affected by the hurricanes at a higher rate than other parishes. Producers
                                       in the parishes that Louisiana decided had received more damage were
                                       paid 32 percent of their loss, not to exceed 32 percent of $80,000, while
                                       other parishes were paid 23.52 percent of their loss, not to exceed
                                       23.52 percent of $80,000. Louisiana officials, however, could not
                                       provide documentation for how they decided which parishes would be
                                       compensated at the higher rate, and which at the lower. We noted one
                                       parish—Cameron Parish—that was devastated by the hurricanes, but that
                                       was paid at the lower rate. When we questioned this apparent disparity,
                                       Louisiana officials stated that this was a mistake and that Cameron
                                       Parish should have been paid at the higher rate. We concluded that,
                                       although Louisiana had begun by developing a system based on severity
                                       of storm damage, the State had not adequately determined how parishes
                                       would be placed within different bands of damage severity.
                                       Consequently, some aquaculture producers, most notably those in
                                       Cameron Parish, were not treated equitably.

                             Overall, we concluded that AGP was not adequately administered to direct funds
                             to areas most affected by the hurricanes and to ensure that producers were
                             compensated equitably based on their losses. Ultimately, the disparities we
                             noted occurred due to the failure of FSA officials to exercise adequate control
                             over the program. FSA does not have extensive experience with administering
                             grants and has no handbook or agency guidance that would assist grant
                             management. When we discussed these problems with FSA officials at the
                             national office, they stated that they relied on States' fiduciary duty having an
                             “official responsibility” to be accountable for its people and comply with the
                             grant agreements. From the outset of the audit, FSA maintained that the grant
                             agreements it signed with the States are their controls. The grant agreement did
                             not, however, provide States with adequate guidance concerning how AGP
                             should be implemented. Furthermore, the existence of a grant agreement does
                             not relieve agency management of its obligation to monitor grant programs,
                             which is well established in Federal and departmental regulations. 8

                             We conclude that FSA should develop and implement controls for future grant
                             programs to ensure that its programs achieve their intended results and treat
                             program participants equitably. Those controls should involve requiring States
                             to submit program plans for review prior to issuing payments and requirements
                             for States to conduct a post-payment review to verify that payments have been
                             correctly processed.

Recommendation 1

                             For future grant programs implemented as a response to disasters, develop a
                             methodology to direct grant funds to the areas most severely affected by the
8
  OMB Circular A-123, "Management's Responsibility for Internal Control," dated December 21, 2004, and Departmental Manual 1110-002, USDA
Management Control Manual, dated November 29, 2002.
USDA/OIG-A/03601-48-Te                                                                                                          Page 6
                                                          October 2007
                                 disaster so that the amount of funding more accurately reflects the level of
                                 losses. Include reallocating grant funds once loss data is available.

                                 Agency Response.

                                 FSA concurs with Recommendation 1 with respect to directing grant funds to
                                 the areas most severely affected by the disaster so that the amount of funding
                                 more accurately reflects the level of losses.

                                 In March 2007, FSA implemented the 2005 Catfish Grant Program (CGP)
                                 authorized under section 3012 of the Agricultural Disaster Assistance Act of
                                 2006. CGP funding was allocated after loss data was made available by each
                                 State. 9 Based on eligible losses, Louisiana was the only State that received grant
                                 funding.

                                 In addition, FSA is currently implementing the 2005-2007 CGP, authorized
                                 under Title IX of the U.S. Troop Readiness, Veterans' Care, Katrina Recovery,
                                 and Iraq Accountability Appropriations Act of 2007. The 2005-2007 CGP
                                 funding will be allocated based on catfish feed losses that occurred as a direct
                                 result of a disaster event described in a presidential or secretarial designation for
                                 counties, or contiguous counties having a natural disaster designated by the
                                 President or declared by the Secretary from January 2, 2005, through
                                 February 27, 2007. Grant funding will be allocated after loss data is available.

                                 OIG Position.

                                 We accept the management decision for Recommendation 1.

Recommendation 2

                                 To the extent practicable, reallocate unexpended AGP funds (such as the
                                 $312,000 in North Carolina) to States that are in need of additional funding.

                                 Agency Response.

                                 FSA stated that, at the time of the AGP audit, North Carolina had not disbursed
                                 any of the $312,000 of AGP funds. However, the Quarterly Expenditure Report
                                 dated June 30, 2007, provided that North Carolina disbursed all ($312,000) of its
                                 AGP funds. In addition, the Quarterly Expenditure Report dated June 30, 2007,
                                 provided that Mississippi had refunded $24,905.16 and Texas had refunded
                                 $51,474.99 of unused AGP funds.



9
  FSA provided OIG with copies of the loss data that was collected for the 2005 CGP. Due to the excess availability of funds relative to the reported
losses, it was not necessary to factor the amount of funds issued to the States. However, FSA stated that, if it was necessary, FSA was prepared to factor
funding issued to the States based on their percentage of the total loss reported.
USDA/OIG-A/03601-48-Te                                                                                                                         Page 7
                                                                  October 2007
                               FSA is consulting with the Office of the General Counsel (OGC) to determine if
                               additional expense under AGP is justified and if the unused funding, authorized
                               under clause (3) of section 32 of the Agricultural Act of August 24, 1935, can be
                               reallocated to States that are in need of additional funding. 10

                               OIG Position.

                               We accept the management decision for Recommendation 2.

Recommendation 3

                               For future grant programs, institute adequate controls to ensure such programs
                               achieve their intended result and that producers receiving program payments,
                               such as the $25 million in AGP funds, are treated equitably. At a minimum,
                               require each State, before it issues any payments, to submit for FSA’s review a
                               plan describing how the State intends to compensate producers.


                               Agency Response.

                               FSA concurs with Recommendation 3 with respect to instituting adequate
                               controls to ensure grant programs achieve their intended result and that
                               producers receiving program payments are treated equitably.

                               Under the 2005-2007 CGP, FSA is requiring each State to submit a work plan
                               that provides a summary of how the State will implement the program,
                               including, but not limited to, program provisions, payment calculations, and loss
                               requirements. In addition, the grant agreements between the States and FSA
                               require the States to conduct internal random reviews of the program to ensure
                               applicants are equitably compensated for losses. State work plans must include
                               the State's methodology for conducting internal reviews of the program to
                               ensure applicants are equitably compensated for losses. 11

                               OIG Position.

                               We accept the management decision for Recommendation 3.




10
   On October 9, 2007, FSA provided OIG with documentation of OGC's September 25, 2007, response concerning the actions necessary for FSA to
reallocate the remaining AGP funds. Generally, OGC advised that, in order to reallocate the unused AGP funds, FSA would have to amend the
Memoranda of Understanding with the States and publish regulations, starting with a proposed rule that would include justification for the specific
reallocation of funds. FSA informed OIG that, based on the information OGC provided, FSA would not be reallocating the remaining AGP funds.
11
   FSA subsequently provided to OIG a copy of the 2005-2007 CGP agreement between the State of Mississippi and FSA, dated September 9, 2007.
USDA/OIG-A/03601-48-Te                                                                                                                   Page 8
                                                               October 2007
Scope and Methodology

                 We reviewed FSA’s 2005 AGP grants to three of the six States that were
                 awarded funds (Alabama, Louisiana, and Mississippi). Together, these States
                 received over $20 million of the $25 million in AGP funds (80 percent). Our
                 fieldwork began March 28, 2007, and ended June 20, 2007. To verify the
                 propriety of individual payments, we judgmentally selected 10 of 389
                 (2.6 percent) of the 2005 AGP applications in Mississippi. The sampled
                 applications accounted for $649,025 of the $10.7 million (6 percent) of AGP
                 payments issued in Mississippi. Mississippi was selected because it was the
                 largest recipient of AGP funds.

                 To accomplish our objectives, we interviewed officials at the FSA national and
                 State offices to verify and gather program data and producer information. Our
                 review included administrative and financial records, as well as regulations,
                 policies, and procedures used to administer AGP. We visited three State
                 agriculture agencies (Alabama, Louisiana, and Mississippi) where we
                 interviewed personnel and reviewed AGP documentation. We reviewed the
                 controls that State agriculture agencies had in place to ensure that producers did
                 not receive dual benefits under AGP and other disaster relief programs,
                 including Livestock Indemnity Program II and the CGP. We also reviewed the
                 controls the State agriculture agencies had to ensure that producers did not
                 exceed the $80,000 payment limitation. Selected producers in Mississippi were
                 reviewed and site visits were conducted at the producers’ operations. We also
                 contacted officials in Florida and Texas to gain additional information.

                 Our audit was conducted in accordance with generally accepted Government
                 auditing standards. Accordingly, the audit included such tests of program and
                 accounting records as considered necessary to meet the audit objectives.




USDA/OIG-A/03601-48-Te                                                                      Page 9
                                       October 2007
Exhibit A – Summary of Monetary Results
                                                                          Exhibit A – Page 1 of 1




    FINDING   RECOMMENDATION
                                 DESCRIPTION            AMOUNT           CATEGORY
    NUMBER        NUMBER

                                FSA Controls Over                     Funds To Be Put To
                                  Approval And                            Better Use –
                               Distribution Of Grant                    Management Or
       1             3                                 $25,000,000
                                    Funds Need                             Operating
                                   Improvement                       Improvements/Savings


              TOTAL MONETARY RESULTS                   $25,000,000




USDA/OIG-A/03601-48-Te                                                                  Page 10
                                  October 2007
 Exhibit B – Summary Data on Payments as of March 2007
                                                                                                                Exhibit B – Page 1 of 1




                            TOTAL
                          PAYMENTS                NUMBER
                              TO                    OF                 AVERAGE                  AVERAGE
   STATE                 PRODUCERS               PAYMENTS               LOSS 12                 PAYMENT       PAYMENT:LOSS RATIO
Mississippi                $10,737,595              363                  $51,378                    $29,580         0.58
Louisiana                   $4,495,178              346                  $48,820                    $12,992         0.27
Alabama                     $5,037,500              163                  No Data                    $30,904         N/A




 12
      Because of limited data available, losses in Mississippi and Louisiana were capped at $80,000.
 USDA/OIG-A/03601-48-Te                                                                                                       Page 11
                                                                     October 2007
Exhibit C – Agency Response
                                         Exhibit C – Page 1 of 4




USDA/OIG-A/03601-48-Te                               Page 12
                          October 2007
USDA/OIG-A/03601-48-Te                  Page 13
                         October 2007
USDA/OIG-A/03601-48-Te                  Page 14
                         October 2007
USDA/OIG-A/03601-48-Te                  Page 15
                         October 2007
